Certificate of Service
I, Counsel of Record for the City of Cranston in Cranston Police Retirees Action Committee v.
City of Cranston, S.Ct No. 19-286, certify that I caused this letter to the Clerk seeking an
extension of time to respond to be mailed on September 9, 2019 by depositing the document with
the United States Postal Service, with first-class postage prepaid, to counsel of record at the
following addresses.
Patrick J. Sullivan
SULLIVAN AND SULLIVAN
300 Centerville Road
Suite 300W
Warwick, RI 02886
patrick@sullivan-attorneys.com
Marisa A. Desautel
Michelle M. Hawes
The Law office of
Marisa Desautel
38 Bellevue Ave.
Newport, RI 02840
marisa@desautelesq.com
I further certify that all parties required to be served have been served.
______________
William K. Wray Jr.

968566.v1

